                                                   ENT OF HOMELAND SECURITY
                                                     Office of Inspector General
                                                Atlanta Field Office - Audit Division
                                                     3003 Chamblee Tucker Rd
                                                          Atlanta, GA 30341


                                                    February 10,2004


    MEMORANDUM

    TO:                  Kenneth 0 . Burris, Jr.
                     cLRegional     Director, FEMA R x o n IV


                         Field Office ~ i r e c t &

    SUBJECT:             Coast Electrical Power Association
                         Bay St. Louis, Mississippi
                         FEMA Disaster No. 1251-DR-MS
                         Audit Report No. DA- 16-04


    The Office of Inspector General (OIG) audited public assistance funds awarded to Coast
    Electrical Power Association, Bay St, Louis, Mississippi. The objective of the audit was
    to determine whether the Association accounted for and expended FEMA funds
    according to federal regulations and FEMA guidelines.

    The Association received an award of $2.7 million from the Mississippi Emergency
    Management Agency, a FEMA grantee, to repair its electrical distribution system
    damaged as a result of Hurricane Georges in October 1998. The award provided 75
    percent FEMA funding for one large project (No. 45449)

    The audit covered the period October 1998 to March 2001. During this period, the
    Association claimed $2,699,622 and received $2,O24,7 17 of FEMA funds.

    The OIG performed the audit under the authority of the Inspector General Act of 1978, as
    amended, and according to generally accepted government auditing standards. The audit
    included tests of the Association's accounting records, a judgmental sample of
    expenditures, and other auditing procedures considered necessary under the
    circumstances.



    Notice: This report remains the property of the DHS Office of Inspector General (DHS-OIG) at all times and, as such, is not
    to be publicly disclosed without the express pern~issionof the DHS-OIG. Requests for copies of this report should be
    immediately forwarded to the DHS Office of Counsel to the Inspector General to ensure strict compliance with all applicable
(   disclosure laws.                                                                                                              I
                     -
                                     RESULTS OF AUDIT 


The Association's claim included questioned costs of $36,075 (FEMA share $27,056)
resulting from excessive administrative, contract, and fringe benefit charges, as follows:



   0   The Association's claim included $l8,5 12 of excess administrative costs. Under
       the Stafford act, the Association is entitled to an administrative allowance based
       on a statutory formula to cover the costs associated with requesting, obtaining and
       administering FEMA funds. Federal regulation (44 CFR 206.228) limits funding
       for administrative costs to that allowance.

       However, the Association's claim included overtime labor charges of $18,5 12 for
       management personnel who performed general administrative activities, i.e.
       communicating with government officials and the general public about power
       restoration efforts, and coordinating the Association's logistical activities.
       Accordingly, the OIG questions these charges because they are for general
       administrative activities and, as such, are covered by the statutory administrative
       allowance.

    * The Association's claim contained $3,137 of excessive contract equipment
       charges. A contractor billed the Association for 476 hours of equipment usage.
       However, the contractors' bills for equipment operators reflected only 245 hours
       of equipment usage. The difference of 23 1 hours and related costs of $3,137
       represent idle equipment time that is unallowable under provisions of the U.S.
       Office of Management and Budget Circular A-87. The excess equipment hours
       are questioned, as follows:

                                        Hourly   Equip. Hrs   Operator      Excess      Amount
        Invoice No.    Eaui~ment                   Billed     Hrs. Billed   Hours     Questioned

         227965        4 Wheeler        $ 6.50       138         72.5          65.5    $ 426
         227965       Pole Trailer        4.75       138         72.5          65.5        311
         227977       Bucket Truck       22.00       100         50.0          50.0      1,100
         227977       Bucket Truck       26.00       -
                                                     100        so.0         50.0       1.300
          Totals                                     a          2459         22J2L?    $3.137

        The Association's claim of $390,315 paid to mutual aid contractors was
        overstated by $10,532. The OIG found that the Association reimbursed several of
        the contractors twice for transporting their equipment from their home office to
        the Association's work site; once based on mileage and again for the time the
        vehicles were in use. However, the mutual aid agreement between the Association
        and the contractors limited reimbursement to mileage only. Accordingly, the OIG
        questions charges of $10,532 for the hourly vehicle usage.
      The Association's overtime fringe benefits claim of $7,333 for food, customer
      service, and dispatcher personnel was overstated by $3,894. The claim was based
      on an overtime fringe rate of 21.23 percent. However, the OIG determined that
      the actual fringe rate applicable to these workers was 9.94 percent. Using the
      actual rate, the Association's claim should have been $3,439. Accordingly, the
      OIG questions the difference of $3,894.



                                RECOMMENDATION

The OIG recommends that the Regional Director, in coordination with the grantee,
disallow the $36,075 of questioned costs.


          DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

The audit results were discussed with Association officials on September 23,2003, and
with grantee and FEMA officials on October 1, 2003. Association officials disagreed
with the findings and stated that the costs should be allowed because they were accepted
by FEMA during final inspection of the project. However, the OIG disagrees. Failure to
detect improper costs during a final inspection does not preclude such costs from being
questioned or disallowed as a result of a subsequent audit (44 CFR 13.51).

Please advise the Atlanta Field Office - Audit Division by April 10, 2004, of the actions
taken to implement the OIG recommendation. Should you have any questions concerning
this report, please contact me or David Kimble at (770) 220-5242.
